Office of Inspector General


March 18, 2013

Mr. Patrick Fine
Vice President of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Mr. Fine:

This letter transmits the Office of Inspector General’s report on the MCC-funded program in
Senegal (Report No. M-000-13-001-S). In finalizing the report, we considered your written
comments on our draft report and included those comments in their entirety in Appendix II of
this report. The report contains one recommendation. We consider that final action has been
reached on the recommendation.

We appreciate the cooperation and courtesy extended to our staff during this audit.

                                            Sincerely,

                                                 /s/

                                            Richard J. Taylor
                                            Deputy Assistant Inspector General for Audit
                                            Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
http://oig.usaid.gov
SUMMARY
The Millennium Challenge Corporation (MCC) signed a 5-year, $540 million compact with the
Government of Senegal in September 2009. The compact aims to reduce poverty and stimulate
economic growth through two major infrastructure projects:

      The Roads Rehabilitation Project ($324 million) will rehabilitate segments of two national
      roads, totaling nearly 400 kilometers.

      The Irrigation and Water Resources Management Project ($170 million)1 will extend and
      improve the quality of the irrigation system in northern Senegal.

The Millennium Challenge Account-Senegal (MCA-Senegal) is the host-government entity
charged with implementing the terms of the compact. The compact entered into force in
September 2010 and will end in September 2015. As of September 2012, MCA-Senegal had
committed approximately $48 million of the compact.

The objective of this audit was to determine whether the MCC-funded projects in Senegal were
achieving their compact goals. However, because the projects were behind schedule and
minimal construction work had begun, the Office of Inspector General (OIG) opted to prepare
this nonaudit report based solely on our work at MCC headquarters in Washington, D.C.

OIG found that:

      The projects were behind schedule, due primarily to delays in obtaining acceptable project
      designs (page 2). MCC officials said there is still sufficient time to complete the projects
      before the compact ends.

      The projects involve extensive resettlement, which could cause further delays if not
      implemented properly (page 2).

      The projects’ long-term maintenance and sustainability rests with the Government of
      Senegal (page 3).

To address our concern with resettlement, OIG recommends that:

1. MCC determine that MCA-Senegal has identified viable options for compensating those
      affected by resettlement in Senegal and developed a written plan to timely implement the
      resettlement activities (page 3).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Appendix II presents MCC’s comments, and our evaluation of them is on page 4.




1
    The remaining compact funds are primarily for program administration.

                                                                                                1
REVIEW RESULTS
Projects Behind Schedule
The MCC-funded roads and irrigation projects in Senegal must be completed by
September 2015, when the compact ends.

However, both projects are behind schedule due primarily to delays in obtaining acceptable
project designs. MCC officials said the design contractors were either late or provided designs
that required refinement, which delayed awarding the construction contracts. Also, more time
was needed to address resettlement issues.

The officials said sufficient time remains within the compact to complete the projects as
intended, but there is very little slack in the schedule. Senegal has pledged at least $12 million
in additional funds if budget shortfalls occur as the projects move forward.

Although MCA-Senegal intends to award all remaining major contracts by April 2013, if more
delays occur, the projects might not achieve their goals. To help maximize the projects’ success
within the limited time remaining, MCC officials said they have:

    Helped strengthen MCA-Senegal’s process for selecting technically competent contractors
    with the greatest chance of completing the projects.

    Helped strengthen MCA-Senegal staff’s contract management skills to manage the road and
    irrigation projects effectively.

    Suggested that MCA-Senegal add staff to help manage the road and irrigation projects.

Because MCC has taken these actions, OIG is not making any recommendations at this time.

Projects Involve Extensive
Resettlement
As outlined in MCC’s resettlement guidance, MCA-Senegal must compensate people who lose
land, assets, or access to resources due to an MCC-funded project. The affected people must
be compensated and their property moved or acquired before construction can proceed.

MCA-Senegal had planned to provide land as in-kind compensation to many of those affected
by the projects, but the land originally identified was not suitable, so MCA-Senegal is
reconsidering its options. Nearly 3,900 people will be affected by resettlement on the road
project and nearly 1,800 people on the irrigation project.

Implementing resettlement properly is crucial to the success of MCC-funded projects. In our
December 2012 report on MCC’s resettlement activities,2 OIG found problems with the
implementation and documentation of resettlement activities in a selected country.
Twenty percent of those affected by resettlement had not received full, timely compensation,


2
 “Audit of the Millennium Challenge Corporation’s Resettlement Activities” (Report No. M-000-13-002-P),
December 6, 2012.

                                                                                                     2
and because of inadequate documentation, OIG could not confirm that proper compensation
payments were made.

The OIG report made several recommendations to improve oversight of resettlement and clarify
processes for making and documenting proper resettlement transactions. MCC agreed with the
recommendations and will take actions to respond. Many of these actions, however, will not be
completed until late 2013.

To help ensure that MCA-Senegal successfully implements resettlement and avoids problems
similar to those OIG identified elsewhere, we make the following recommendation.

   Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, determine that Millennium Challenge
   Account-Senegal has identified viable options for compensating those affected by
   resettlement in Senegal and developed a written plan to timely implement the
   resettlement activities.

Sustainability Rests
With the Government
Of Senegal
The MCC-funded infrastructure projects in Senegal must be maintained properly once they are
completed so they are sustainable for many years after the compact ends. Long-term
maintenance of the improved roads and irrigation works will be provided and funded by the
Government of Senegal. MCC required the government to take actions to minimize the risk of
inadequate maintenance funding.

For the roads maintenance, MCC required the government to develop a schedule for eliminating
the gap between the needed annual maintenance funding and the available annual funds. The
government projects that by 2015, the gap will be zero. MCC will continue to monitor the
government’s progress in closing this gap.

For the irrigation maintenance, MCC required the government to develop an action plan for
ensuring that maintenance services were improved and that maintenance funding—a
combination of government funds and user fees—was adequate. MCC will review the
government’s efforts to ensure that appropriate funding levels continue.

Because MCC has taken action to ensure that funding is available for maintenance, OIG is not
making any recommendations at this time.




                                                                                           3
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II of this report. MCC agreed with Recommendation 1, to determine that MCA-
Senegal has identified viable options for compensating those affected by resettlement in
Senegal and developed a written plan to timely implement the resettlement activities.

MCC confirmed that MCA-Senegal has identified viable options for compensating all persons
affected by the project in Senegal. MCC reports that MCA-Senegal has taken the following
steps:

   Finalized all resettlement action plans and developed a realistic schedule to implement all
   resettlement tasks.

   Found replacement land for those who have large losses of land or who will not accept cash
   compensation.

MCC also has approved contracts with a financial institution to ensure timely, secure and
verifiable delivery of compensation. MCC has determined that MCA-Senegal has developed
two written resettlement implementation plans and a dashboard to ensure timely implementation
of its resettlement activities. OIG acknowledges MCC’s management decision and final action
on this recommendation.




                                                                                            4
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this audit of the MCC-funded program in Senegal in accordance with generally
accepted government auditing standards. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

MCC signed a compact with the Government of Senegal for $540 million that entered into force
in September 2010. We reviewed both projects being funded by the compact: the Roads
Rehabilitation Project and the Irrigation and Water Resource Management Project. We
conducted our fieldwork from November 28, 2012, to February 7, 2013, at MCC headquarters in
Washington, D.C. Because the projects were behind schedule and minimal construction work
had begun, OIG prepared this nonaudit report based solely on our work at MCC headquarters.

Methodology
To answer the audit objective, the audit team met with MCC officials to gain an understanding of
compact activities. We analyzed documents and reports to identify concerns. Specifically, we
performed the following:

   Interviewed MCC officials to gain an understanding of the project activities.

   Reviewed documents supporting the project activities, including the compact, due diligence
   documents, the monitoring and evaluation plan, and progress reports.

   Met with officials of other donor organizations to gain an understanding of the working
   environment in Senegal.




                                                                                              5
                                                                                    Appendix II



MANAGEMENT COMMENTS



DATE:         February 25, 2013

TO:           Richard J. Taylor
              Deputy Assistant Inspector General for Audit
              Office of Inspector General
              Millennium Challenge Corporation
              /s/
FROM:         Patrick Fine
              Vice President
              Department of Compact Operations
              Millennium Challenge Corporation

SUBJECT:      MCC’s Response to the Office of Inspector General’s (OIG) Draft Report “Audit
              of the Millennium Challenge Corporation’s Funded Program in Senegal”.

Dear Mr. Taylor:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
OIG draft report entitled “Audit of the Millennium Challenge Corporation’s Funded Program in
Senegal”. MCC’s specific response to the recommendation noted in the draft report is detailed
below.

Recommendation 1: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, determine that Millennium Challenge Account-
Senegal has identified viable options for compensating those affected by resettlement in Senegal
and developed a written plan to timely implement the resettlement activities.

MCC’s Response: MCC agrees with this recommendation and confirms that the Millennium
Challenge Account-Senegal (MCA-Senegal) has identified viable options for compensating all
persons affected by the project (PAPs) in Senegal. MCC is actively monitoring (and will
continue to monitor) MCA-Senegal’s implementation of its resettlement compensation strategy.

MCC has reached this determination based on the steps undertaken to date to ensure effective
and timely PAP compensation. Specifically, MCA-Senegal (with MCC’s assistance and
oversight) has taken the following steps: (i) finalized all resettlement action plans (RAPs) and

                                                                                              6
                                                                                   Appendix II


developed a realistic timetable of all resettlement tasks to be implemented; and (ii) found
replacement land for PAP cases that have larger losses of land or who will not accept cash
compensation in the Delta. MCC has also approved contracts with a financial institution to
ensure timely, secure and verifiable delivery of compensation to PAPs. MCA-Senegal shall
execute this agreement shortly.

MCC has furthermore determined that MCA-Senegal has developed (i) two written resettlement
implementation plans; and (ii) a dashboard to ensure timely implementation of its resettlement
activities.

This constitutes MCC’s formal response to the draft report as well as Management Decision and
Final Action for the above recommendation. If you have any questions or require any additional
information, please contact Pat McDonald, Compliance Officer at 202-521-7260.




                                                                                            7
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
         Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
